HHS/OIG-Audit--"Improper Fiscal Year 2000 Medicare Fee-for-Service Payments, (A-17-00-02000)"
Department of Health and Human Services
Office of Inspector General -- AUDIT
"Improper Fiscal Year 2000 Medicare Fee-for-Service Payments," (A-17-00-02000)
March 6, 2001
Complete Text of Report is available in PDF format
(1.41 mb). Copies can also be obtained by contacting the Office of Public Affairs
at 202-619-1343.
EXECUTIVE SUMMARY:
This final report points out the results of our review of Fiscal Year (FY)
2000 Medicare fee-for-service claims. Based on our statistical sample, we estimate
that improper Medicare benefit payments made during FY 2000 totaled $11.9 billion,
or about 6.8 percent of the $173.6 billion in processed fee-for-service payments
reported by the Health Care Financing Administration (HCFA). As in past years,
these improper payments could range from inadvertent mistakes to outright fraud
and abuse. Since we developed the first error rate for FY 1996, HCFA has closely
monitored Medicare payments and has instituted appropriate corrective actions.
The HCFA has also worked with provider groups to clarify reimbursement rules
and to impress upon health care providers the importance of fully documenting
services. Additional initiatives on the part of the Congress, HCFA, the Department
of Justice, and the Office of Inspector General have focused resources on preventing,
detecting, and eliminating fraud and abuse. All of these efforts, we believe,
have contributed to reducing the improper payment rate by almost half from FY
1996 to 2000. However, continued vigilance is needed to ensure that providers
maintain adequate documentation supporting billed services, bill only for services
that are medically necessary, and properly code claims. These problems have
persisted for the past 5 years. Our recommendations address the need for HCFA
to sustain its efforts in reducing improper payments.